BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in
Volkswagen Group of America, Inc., et al. v. The
Environmental Protection Commission of Hillsborough
County, Florida, and Salt Lake County, Utah, was sent
via Next Day Service to the U.S. Supreme Court, and
via e-mail service to the following parties listed below,
this 21st day of January, 2021:
Peter K. Stris
Douglas D. Geyser
John Stokes
Stris & Maher LLP
777 S. Figueroa Street, Suite 3850
Los Angeles, CA 90017
Tel.: (213) 995-6800
peter .stris@strismaher.com
douglas. geyser@strismaher.com
john.stokes@strismaher.com

Counsel for Respondents Environmental Protection
Commission of Hillsborough County, Florida and Salt
Lake County, Utah
W. Daniel "Dee" Miles, III
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
218 Commerce Street
Montgomery, AL 36104
Tel.: (334) 269-2343
dee.miles@beasleyallen.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Archie Irwin Grubb II
1430 Wynnton Road
Columbus, GA 31906
archie.grubb2@gmail.com
Tom Young
Law Office of Thomas L. Young, P.A.
320 W Kennedy Boulevard, Suite 650
Tampa, FL 33606
tyoung@tlylaw.com

Counsel for Respondent Environmental Protection
Commission of Hillsborough County, Florida
Colin P. King
Paul M. Simmons
Dewsnup King Olsen Worel Havas Mortensen
36 South State St., Suite 2400
Salt Lake City, UT 84111
Tel.: (801) 533-0400
cking@dkowlaw.com
psimm@dkow law .com
Bridget K. Romano
Office of the Salt Lake County District Attorney
Civil Division
35 East 500 South
Salt Lake City, UT 84111
bromano@slco.org

Counsel for Respondent Salt Lake County, Utah

Robert J. Giuffra, Jr.
Counsel of Record
David M.J. Rein
Matthew A. Schwartz
Sullivan & Cromwell LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
giuffrar@sullcrom.com
Michael H. Steinberg
Sullivan & Cromwell LLP
1888 Century Park East
Los Angeles, CA 90067
Judson 0. Littleton
Sullivan & Cromwell LLP
1700 New York Ave., N.W.
Washington, DC 20006
Counsel for Petitioners
Volkswagen Group of America, Inc. and
Audi of America, LLC
Cari K. Dawson
Alston & Bird LLP
One Atlantic Center
1201 West Peachtree St.
Atlanta, Georgia 30309
Counsel for Petitioner
Porsche Cars North America, Inc.

Carmine D. Boccuzzi, Jr.
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, NY 10006
Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Ave., N.W.
Washington, DC 20037

Counsel for Petitioner
Robert Bosch LLC

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 21, 2021.

l) nuca ~

LA)~

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:JJ::1.~
Notary Public

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r;,t,ruarv 14, 2~J23

